Supreme Court, U.S.
FILED

WAIVER

JAN 1 1 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-785

Eboni Nicole Baldwin

Latoisha Dorsey

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel or Record for the following respondent(s):

11 I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of thiS Court. <Should a respOns,e he reqUested, the response
will be filed by a Bar member.
Signature
Date.

January.10; 2021

(Type or print) Name

Suzanne Bradley
Mr.

Firm

❑ Mrs.

II] Miss

Harris County Attorney's Office

Address

1019 Congress, 15th Floor

City & State
Phone

El Ms.

Houston, Texas

(713) 274-5330

Zip
Email

77002

Suzanne.Bradley@cao.hctx.net

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER.
PLEASE INDICATE- BELOW THE NAME(S)-OF THE RECIPIEN_
IF PRO
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQ TI

cc: Eboni Nicole Baldwin

JAN 2 2 2021
OFFICE OF THE CL E RK
SUPREME COURT U.S.

